GR-40-98-021
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Justice Programs 
Grant for Drug Court Improvement and
Enhancement to the 16th Judicial Circuit Court of Florida
Grant No. 95-DC-MX-0059
 
GR-40-98-021
August 1998
 
 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an
audit of grant number 95-DC-MX-0059, awarded by the U.S. Department of Justice, Office of
Justice Programs (OJP) to the 16th Judicial Circuit Court of Florida (grantee). The
grantee received the grant of $196,126 to improve the drug court program through the
automation of case management and the expansion of drug court services to additional areas
within the 16th Judicial Circuit Court. The grant period was September 15, 1995 through
March 31, 1998.

In brief, our audit determined the grantee:


Charged unallowable costs of $4,442 to the grant. Specifically, the unallowable costs
    were for unapproved transfers between cost categories, excessive personnel costs,
    unnecessary supply expenses, and inappropriate travel expenses.


Did not timely submit some Financial Status Reports to the Office of Justice Programs.


Did not submit one Categorical Assistance Progress Report to OJP as required, and
    submitted other progress reports late.

These items are discussed in detail in the Findings and Recommendations section of the
report. Our Scope and Methodology appear in Appendix II.
#####